Department of Health and Human Services

                   OFFICE OF

              INSPECTOR GENERAL





MORRISTOWN MEDICAL CENTER

INCORRECTLY BILLED MEDICARE

   INPATIENT CLAIMS WITH 

       KWASHIORKOR



  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                  Stephen Virbitsky

                                               Regional Inspector General


                                                        May 2014

                                                      A-03-13-00036

                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as

 questionable, a recommendation for the disallowance of costs

 incurred or claimed, and any other conclusions and

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating

 divisions will make final determination on these matters.

                                      EXECUTIVE SUMMARY


 Morristown Medical Center incorrectly billed Medicare inpatient claims with Kwashiorkor,
 resulting in overpayments of $375,000 over 3 years.

WHY WE DID THIS REVIEW

Kwashiorkor is a form of severe protein malnutrition. It generally affects children living in
tropical and subtropical parts of the world during periods of famine or insufficient food supply.
Cases in the United States are rare. The Medicare program provides health insurance coverage
primarily to people aged 65 or older; however, for calendar years (CYs) 2010 and 2011,
Medicare paid hospitals $711 million for claims that included a diagnosis code for Kwashiorkor.
Therefore, we are conducting a series of reviews of hospitals with claims that include this
diagnosis code.

Our objective was to determine whether Morristown Medical Center (the Hospital) complied
with Medicare billing requirements for Kwashiorkor.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) pays inpatient hospital costs at
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s
diagnosis. The DRG payment is, with certain exceptions, intended to be payment in full to the
hospital for all inpatient costs associated with the beneficiary’s stay.

The Hospital is a 660-bed acute-care not-for-profit community hospital located in Morristown,
New Jersey. The Hospital is part of the Atlantic Health Systems. The Hospital received
$5,184,537 in Medicare payments for 230 inpatient hospital claims that included a diagnosis
code for Kwashiorkor during our audit period (CYs 2010 through 2012). We reviewed
$5,086,397 for 198 of these claims.

WHAT WE FOUND

The Hospital did not comply with Medicare requirements for billing Kwashiorkor on 197 of the
198 claims that we reviewed. The Hospital used diagnosis code 260 for Kwashiorkor but should
have used codes for other forms of malnutrition. The remaining claim had a physician’s
diagnosis of Kwashiorkor and therefore was billed correctly. For 149 of the incorrectly billed
inpatient claims, correcting the diagnosis code resulted in no change in the DRG payment.
However, for the remaining 48 inpatient claims, the errors resulted in overpayments of $374,603.
Hospital officials attributed these errors to a lack of clarity in the coding guidelines and issues
with the medical coding software program used to code the diagnoses.




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00036)   i
WHAT WE RECOMMEND

We recommend that the Hospital:

    •   refund to the Medicare program $374,603 for the incorrectly coded claims and

    •   strengthen controls to ensure full compliance with Medicare billing requirements.

MORRISTOWN MEDICAL CENTER COMMENTS

In written comments, the Hospital concurred with our finding that 197 of the 198 claims that we
reviewed were incorrectly billed with a diagnosis code for Kwashiorkor. The Hospital described
the action it had taken to refund the overpayments and said that the coding software had been
updated.




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00036)   ii
                                                     TABLE OF CONTENTS


INTRODUCTION .....................................................................................................................1


           Why We Did This Review .............................................................................................1


           Objective ........................................................................................................................1 


           Background ....................................................................................................................1

                 The Medicare Program ......................................................................................1

                 Hospital Inpatient Prospective Payment System ...............................................1

                 Morristown Medical Center ...............................................................................1


           How We Conducted This Review..................................................................................2


FINDING ...................................................................................................................................2


           Federal Requirements and Guidance .............................................................................2


           Incorrect Use of the Diagnosis Code for Kwashiorkor..................................................2


RECOMMENDATIONS ...........................................................................................................3


MORRISTOWN MEDICAL CENTER COMMENTS .............................................................3



APPENDIXES

           A: Audit Scope and Methodology ................................................................................4


           B: Morristown Medical Center Comments ...................................................................6





The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00036)                                              iii
                                           INTRODUCTION


WHY WE DID THIS REVIEW

Kwashiorkor is a form of severe protein malnutrition. It generally affects children living in
tropical and subtropical parts of the world during periods of famine or insufficient food supply.
Cases in the United States are rare. The Medicare program provides health insurance coverage
primarily to people aged 65 or older; however, for calendar years (CYs) 2010 and 2011,
Medicare paid hospitals $711 million for claims that included a diagnosis code for Kwashiorkor.
Therefore, we are conducting a series of reviews of hospitals with claims that include this
diagnosis code.

OBJECTIVE

Our objective was to determine whether Morristown Medical Center (the Hospital) complied
with Medicare billing requirements for Kwashiorkor.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge. The Centers for Medicare & Medicaid Services
(CMS) administers the Medicare program. CMS contracts with Medicare contractors to, among
other things, process and pay claims submitted by hospitals.

Hospital Inpatient Prospective Payment System

CMS pays inpatient hospital costs at predetermined rates for patient discharges under the
inpatient prospective payment system. The rates vary according to the diagnosis-related group
(DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s diagnosis.
The DRG payment is, with certain exceptions, intended to be payment in full to the hospital for
all inpatient costs associated with the beneficiary’s stay. The DRG and severity level are
determined according to diagnoses codes established by the International Classification of
Diseases, Ninth Revision, Clinical Modification (coding guidelines). The coding guidelines
establish diagnosis code 260 for Kwashiorkor. Because Kwashiorkor is considered a high-
severity diagnosis, using diagnosis code 260 may increase the DRG payment.

Morristown Medical Center

The Hospital, which is part of the Atlantic Health System, is a 660-bed acute-care not-for-profit
community hospital located in Morristown, New Jersey. The Hospital received $5,184,537 in
Medicare payments for inpatient hospital claims that included diagnosis code 260 for
Kwashiorkor during our audit period (CYs 2010 through 2012) based on CMS’s National Claims
History data.




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00036)   1
HOW WE CONDUCTED THIS REVIEW

Our audit covered $5,086,397 of Medicare payments to the Hospital for 198 claims that
contained diagnosis code 260 for Kwashiorkor. We did not review managed care claims or
claims that were under separate review. We evaluated compliance with selected Medicare
billing requirements but did not use medical review to determine whether the services were
medically necessary. This report does not represent an overall assessment of all claims
submitted by the Hospital for Medicare reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix A for the details of our scope and methodology.

                                                 FINDING

The Hospital did not comply with Medicare requirements for billing Kwashiorkor on 197 of the
198 claims that we reviewed. The Hospital used diagnosis code 260 for Kwashiorkor but should
have used codes for other forms of malnutrition. The remaining claim had a physician’s
diagnosis of Kwashiorkor and therefore was billed correctly. For 149 of the incorrectly billed
inpatient claims, correcting the diagnosis code resulted in no change in the DRG payment.
However, for the remaining 48 inpatient claims, the errors resulted in overpayments of $374,603.
Hospital officials attributed these errors to a lack of clarity in the coding guidelines and issues
with the medical coding software program used to code the diagnoses.

FEDERAL REQUIREMENTS AND GUIDANCE

Medicare payments may not be made for items and services that “are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (The Social Security Act (the Act), § 1862(a)(1)(A)). In addition, the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider (§ 1833(e)).

In addition, the Medicare Claims Processing Manual requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No.
100-04, chapter 1, § 80.3.2.2).

INCORRECT USE OF THE DIAGNOSIS CODE FOR KWASHIORKOR

The Hospital did not comply with Medicare billing requirements for Kwashiorkor for 197 of the
198 claims we reviewed, resulting in overpayments of $374,603. The coding guidelines
establish diagnosis code 260 for Kwashiorkor. However, our review of the documentation
provided did not support the billing of this diagnosis code. For 149 of the inpatient claims, the



The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00036)   2
Hospital included multiple diagnosis codes, at least one of which had a similar or greater severity
level. Therefore, removing diagnosis code 260 or replacing it with a more appropriate diagnosis
code resulted in no change in the DRG payment. However, for the remaining 48 inpatient
claims, the errors resulted in overpayments of $374,603. Hospital officials attributed these errors
to a lack of clarity in the coding guidelines and issues with the medical coding software program
used to code the diagnoses.

                                       RECOMMENDATIONS

We recommend that the Hospital:

    •   refund to the Medicare program $374,603 for the incorrectly coded claims and

    •   strengthen controls to ensure full compliance with Medicare billing requirements.

MORRISTOWN MEDICAL CENTER COMMENTS

In written comments, the Hospital concurred with our finding that 197 of the 198 claims that we
reviewed were incorrectly billed with a diagnosis code for Kwashiorkor. The Hospital described
the action it had taken to refund the overpayments and said that the coding software had been
updated. The Hospital’s comments are included as Appendix B.




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00036)   3
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY


SCOPE

Our audit covered $5,086,397 in Medicare payments to the Hospital for 198 inpatient claims that
contained diagnosis code 260 for Kwashiorkor during the period January 1, 2010, through
December 31, 2012. We did not review managed care claims or claims that were under separate
review.

We limited our review of the Hospital’s internal controls to those applicable to the coding of
inpatient hospital claims because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We evaluated compliance with selected
Medicare billing requirements, but did not use medical review to determine whether the services
were medically necessary. We established reasonable assurance of the authenticity and accuracy
of the data obtained from the National Claims History file, but we did not assess the
completeness of the file.

This report does not represent an overall assessment of all claims submitted by the Hospital for
Medicare reimbursement.

We conducted our review from October 2013 through March 2014.

METHODOLOGY

To accomplish our objective, we:

    •	 reviewed Federal laws, regulations, and guidance;

    •	 extracted the Hospital’s inpatient paid claims data from CMS’s National Claims History
       file for the audit period;

    •	 selected all paid claims that included the diagnosis code for Kwashiorkor (260);

    •	 removed all managed care claims and any claims that were either previously reviewed by
       a Recovery Audit Contractor;

    •	 reviewed available data from CMS’s Common Working File for the selected claims to
       determine whether the claims had been cancelled or adjusted;

    •	 repriced each selected claim in order to verify that the original payment by the CMS
       contractor was made correctly;

    •	 requested that the Hospital conduct its own review of the 198 claims to determine

       whether the diagnosis code for Kwashiorkor was used correctly;





The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00036)   4
    •	 reviewed the medical record documentation that the Hospital provided to support other
       malnutrition diagnoses;

    •	 discussed the incorrectly coded claims with Hospital officials to determine the underlying
       causes of noncompliance with Medicare requirements;

    •	 calculated the correct payments for those claims requiring adjustments;

    •	 discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00036)   5
            APPENDIX B: MORRISTOWN MEDICAL CENTER COMMENTS





Atlantic

Health System
                                                                                   Morristown Medical Center
                                                                                      Overtook Medical Center
                                                                                        Newton Medical Center
                                                                                         Chilton Medical Center
                                                                                    Goryeb Children's Hospital
March 19, 2014

Mr. Stephen Virbitsky
Regional Inspector General for Audit Services
Department of Health and Human Services
Office of Inspector General
Office of Audit Services, Region III
Public Ledger Building, Suite 316
150 S. Independence Mall West
Philadelphia, PA 19106

RE: Report Number: A-03-13-00036

Dear Mr. Virbitsky:

This letter is in response to your October 2, 2013 letter and subsequent correspondence which
provided the results of the Office of Inspector General's (OIG) review of Morristown Medical
Center's (MMC) Medicare billing of claims with diagnosis code 260 (Kwashiorkor). The OIG's
review examined MMC's claims billed during calendar years 2010-2012. The OIG found that
MMC submitted 204 claims with Kwashiorkor as the primary or secondary diagnosis. The OIG
divided the 204 claims into two groups -- (i) those where the Kwashiorkor diagnosis did not
affect the payment for the claim (145 claims), and (ii) those where the Kwashiorkor diagnosis
affected the payment for the claim and resulted in a $453,790 overpayment (59 claims).

MMC provided the OIG with documentation supporting certain claims where the Kwashiorkor
diagnosis affected the payment. MMC also provided the OIG with documentation regarding
certain claims that had previously been the subject of RAC review. After taking this
documentation into account, the OIG reviewed 198 claims and found that MMC correctly used
the Kwashiorkor diagnosis code on one claim and incorrectly used the Kwashiorkor diagnosis
code on 197 claims. Correcting the diagnosis code on 149 of the 197 claims resulted in no
change in payment. Correcting the diagnosis code on the remaining 48 of the 197 claims
resulted in an overpayment totaling $374,603. MMC concurs with the OIG's final determination.

MMC has utilized the usual repayment process to refund the $374,603 overpayment to N ovitas,
the Medicare Administrative Contractor.

      Eva J. Goldenberg                                               T 973.660.3143 F 973.360.0540
      Corporate Compliance & Internal Audit                          eva.goldenberg@atlantichealth.org
      475 South Street
      Morristown, NJ 07960




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00036)            6
 Atlantic

 Health System                  

                                                                                   Morristown Medical Center
                                                                                      Overtook Medical Center
                                                                                        Newton Medical Center
                                                                                    Goryeb Children's Hospital




The billing errors were due to a number of reasons:

    •	 Software issue with the 3M grouper product which resulted in the incorrect code
       assignment of 260 (Kwashiorkor). Corrective action was taken by 3M with a software
       update in October 2010. The update did not immediately take hold. By the end of 2011,
       it was implemented and, as is apparent in the claims lists provided by the OIG, claims for
       2012 were not at issue.
    •	 Lack of clarity in the ICD-9 manual's indexed entries for coding "Malnutrition ...

       Protein".

    •	 Lack of clarity in AHA Coding Clinic (3rd Quarter 2009) such that coders may not have
       realized that a query was necessary.

If you have any questions, please do not hesitate to contact me.



Very truly yours,


/Eva J. Goldenberg/

Director, Corporate Compliance & Internal Audit
Chief Compliance Officer




      Eva J. Goldenberg                                               T 973.660.3143 F 973.360.0540
      Corporate Compliance & Internal Audit                          eva.goldenberg@atlantichealth.org
      475 South Street
      Morristown, NJ 07960




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00036)            7
